SOUTHBAY UNITED PENTECOSTAL CHURCH, et al.
v.
GAVIN NEWSOM, Governor of California, et al.
Docket No. 20-746
CERTIFICATE OF SERVICE
I, Jeffrey P. Michalowski, counsel of record for Respondents, Wilma J.
Wooten, in her official Capacity as Public Health Officer, County of San Diego,
Helen Robbins-Meyer, in her official capacity as Director of Emergency Services,
County of San Diego, and William D. Gore in his official capacity as Sheriff, County
of San Diego, served 1 package containing SAN DIEGO COUNTY RESPONDENTS’
WAIVER RE: BRIEF IN OPPOSITION on December 30, 2020 via electronic filing
and priority U.S. mail on the following counsel:
Charles S. LiMandri
Counsel of Record
LIMANDRI & JONNA LLP
P.O. Box 9120
Rancho Santa Fe, CA 92067
Phone: (858) 759-9930
Email: cslimandri@limandri.com

Attorneys for Plaintiffs and
Applicants, South Bay United
Pentecostal Church and
Bishop Arthur Hodges III

Xavier Becerra, Attorney General of
California
Paul Stein, Supervising Deputy Attorney
General
Samuel Thomas Harbourt, Deputy Attorney
General
California Department of Justice
State of California
455 Golden Gate Ave Suite 11000
San Francisco, CA 94102
Phone: (415) 510-3919
Email: Samuel.Harbourt@doj.ca.gov

Attorneys for Defendants and
Respondents, Gavin Newsom,
in his official capacity as the
Governor of California; Xavier
Becerra, in his official
Capacity as the Attorney
General of California, Sonia
Angell, in her official capacity
as California Public Health
Officer

i

By:

\\

All parties required to be served have been served by priority U.S. mail.
JEFFREY P. MICHALOWSKI
Counsel of Record
Office of County Counsel
1600 Pacific Highway, Room 355
San Diego, CA 92101
(619) 531-4886
Jeffrey.michalowski@sdcounty.ca.gov

